CONTRATO AL POR MENOR A PLAZOS PLAN DE CUENTAS ROTATIVAS
Los siguientes términos y condiciones gobernarán el
uso de las tarjetas de crédito Visa® y MasterCard® (la
Tarjeta) expedidas por Scotiabank de Puerto Rico (el
Banco) por parte del solicitante (el Tarjetahabiente) ya
sea individual o mancomunadamente:
I. USO DE LA TARJETA
El Tarjetahabiente y su empresa usarán la Tarjeta
para comprar o arrendar mercancía o servicios en
establecimientos en los que se acepte la Tarjeta y
para obtener adelantos de efectivo del banco o de
cualquier otro banco que acepte la Tarjeta, según los
límites que el Banco o el banco emisor establezca.
El Tarjetahabiente autoriza al Banco a pagar y cargar
su cuenta por todas las compras de mercancía o
servicios y adelantos de efectivo realizados con la
Tarjeta y conviene pagar al Banco por todas esas
compras y adelantos de efectivo, más los CARGOS
POR FINANCIAMIENTO que impongan en la cuenta
del Tarjetahabiente, y cualesquiera otros cargos que
el Tarjetahabiente deba según los términos de este
contrato, cuyas sumas se pagarán en su totalidad o en
plazos mensuales en moneda legal de los Estados
Unidos de América.
II. LIMITE DE CREDITO
El límite de crédito inicial otorgado por el Banco a la
cuenta del Tarjetahabiente aparecerá en un aviso que
se enviará con la Tarjeta. También, el límite de crédito
efectivo a la fecha del estado de cuenta mensual
aparecerá en el estado. Si el Tarjetahabiente excede
el límite de crédito aprobado por el Banco, el Banco
tendrá derecho a cerrar la cuenta, cancelar la Tarjeta,
exigir su devolución o tomar posesión de la Tarjeta.
El Tarjetahabiente pagará cualquier exceso sobre el
límite de crédito aprobado por el Banco en el
momento en que se le exija. El Banco no cobrará
cargos por excederse del límite autorizado. El límite
de crédito del Tarjetahabiente de la cuenta puede ser
reducido por el Banco por no cumplir con los
parámetros crediticios establecidos por el Banco y si
se produce una de las siguientes condiciones:
A. Manejo inadecuado de su cuenta según los
parámetros del Banco, que puede incluir: atraso de un
pago mínimo, un cheque devuelto, exceder el límite de
la línea de crédito establecida
B. No utilizar la cuenta por un periodo de 12 meses
C. No activar la cuenta
Límite para Adelantos de Efectivo: La cantidad
máxima para adelantos de efectivo será el 20% del
límite de crédito aprobado si está disponible.
III. CANCELACION DE LA TARJETA
Usted puede cancelar su cuenta en cualquier
momento notificándolo por escrito. Puede también
cancelar su Tarjeta si no está de acuerdo con
cualquier cambio realizado a este contrato. Refiérase
a la sección XIV de este Contrato para más
información. La Tarjeta es propiedad del Banco y éste
puede cancelar en cualquier momento sin previo aviso

al Tarjetahabiente quien conviene en devolver a solicitud
del Banco cualquier Tarjeta expedida.
IV. ESTADO DE CUENTA MENSUAL
El Banco le proveerá al Tarjetahabiente un Estado de
Cuenta Mensual que habrá de contener toda aquella
información requerida por ley.
V. CARGOS POR FINANCIAMIENTO
Los CARGOS POR FINANCIAMIENTO de las tarjetas
se computan únicamente sobre el balance de principal
en compras de mercancías, servicios, adelantos de
efectivo y transferencias de balances.
Las tasas mensuales y anuales son las siguientes:

Tipo de
Tarjeta

MasterCard
Visa
Gold
MasterCard

Visa Gold

Tasa de
Porcentaje
Anual
para
Compras
(APR)
18.95%
19.99%
24.99%
17.90%
14.99%
16.99%
19.99%
24.99%

Tasa
Periódica
Mensual

Tasa de
Porcentaje
Anual para
Adelantos
de Efectivo
(APR)

Tasa
Periódica
Mensual
para
Adelantos
de Efectivo

1.5792%
1.6658%
2.0825%

22.99%
22.99%
24.99%

1.9158%
1.9158%
2.0825%

1.4917%

22.99%

1.9158%

1.2492%
1.4158%
1.6658%
2.0825%

14.99%
16.99%
19.99%
24.99%

1.2492%
1.4158%
1.6658%
2.0825%

APR (Tasa de Porcentaje Anual)

La tasa de porcentaje anual para MasterCard y Visa en
compras, adelantos de efectivo y transferencias de
balances puede ser 18.95%, 19.99% ó 24.99%. La tasa
de porcentaje anual se establece dependiendo de su
experiencia de crédito al momento de que su solicitud
sea aprobada, en arreglo a la libre competencia y de
conformidad con la reglamentación en vigor.
La tasa de porcentaje anual para Visa Gold en compras,
adelantos de efectivo y transferencias de balances
puede ser 14.99%, 16.99%, 19.99% ó 24.99%.
La tasa de porcentaje anual se establece dependiendo
de su experiencia de crédito al momento de que su
solicitud sea aprobada, en arreglo a la libre competencia
y de conformidad con la reglamentación en vigor.
A. CARGOS POR FINANCIAMIENTO en compras de
mercancías y servicios:
1. Se calcula el Balance Promedio Diario para compras
sumando el balance pendiente al final de cada día
durante el ciclo de facturación anterior y dividiendo esa
suma por el número de días en ese ciclo de facturación.
El balance pendiente al final de cada día se determina:
a) Sumando al balance pendiente del día anterior
cualquier compra contabilizada en ese día y b) restando
del balance pendiente del día anterior cualquier pago
recibido o crédito contabilizado en relación con compras
durante ese día.
2. Multiplica el Balance Promedio Diario por la tasa
periódica mensual que esté vigente.

B. El Banco determina los CARGOS POR
FINANCIAMIENTO que usted pagará por adelantos
de efectivo como sigue:
1. Calcula el Balance Promedio Diario para adelantos
de efectivo tal y como se establece anteriormente para
compras de mercancía y servicios aplicando una tasa
periódica mensual al Balance Promedio Diario.
2. Multiplica el Balance Promedio Diario por la tasa
periódica mensual que esté vigente.
3. No existen periodos de gracia para evitar CARGOS
POR FINANCIAMIENTO en aquellos adelantos de
efectivo obtenidos por el Tarjetahabiente.
C.
No
se
impondrán
CARGOS
POR
FINANCIAMIENTO sobre compras de mercancía y
servicios durante el ciclo de facturación mensual si el
Tarjetahabiente paga en su totalidad en o antes de la
fecha de pago que aparece en el estado de cuenta.
Los CARGOS POR FINANCIAMIENTO en adelantos
de efectivo se calcularán desde la fecha en la cual el
adelanto de efectivo es cargado a la cuenta del
Tarjetahabiente hasta que se paga en su totalidad.
Las TRANSFERENCIAS de BALANCES y los
CHEQUES de CONVENIENCIA son tratados como
adelantos de efectivo.
VI. PAGO MINIMO
El Tarjetahabiente puede pagar la cantidad total o una
parte del nuevo balance que aparece en su estado de
cuenta mensual, pero debe pagar por lo menos el
pago mínimo mensual calculado como sigue:
3% del nuevo balance, más cualquier balance vencido
y/o cantidad sobre el límite aprobado, o $25, lo que
sea mayor.
VII. APLICACION DE PAGOS
Si el Tarjetahabiente paga una cantidad en exceso del
pago mínimo requerido, la cantidad pagada en exceso
se aplicará a la deuda más onerosa. El Banco
acreditará el pago que realice el Tarjetahabiente el
mismo día en que sea recibido cuando éste se
efectúe: (a) en efectivo o en cheque a través de una
de las sucursales del Banco, antes de la hora de
cierre; (b) electrónicamente antes de las 5:00 p.m. de
lunes a sábado; o (c) a través de correo junto al
talonario de pago a la dirección que aparece en el
Estado de Cuenta del Tarjetahabiente, siempre y
cuando el pago sea recibido antes de las 5:00 p.m. de
lunes a viernes.
VIII. DISPONIBILIDAD DE CRÉDITO
Cuando el método de pago utilizado no sea en
efectivo, el Banco aplazará la disponibilidad de los
fondos equivalentes al importe de pago, por un
periodo de hasta cinco (5) días laborables. Esto
significa que a pesar de que su pago va a ser
acreditado, no va a tener disponible ese balance hasta
que haya transcurrido dicho periodo. Esto no
conllevará cargos adicionales a su cuenta por
concepto de cargos por financiamiento.

IX. CUOTA ANUAL DE MEMBRESIA
El Tarjetahabiente está sujeto al pago de una cuota
anual, así como al pago de cuota anual por cada tarjeta
adicional. Las cuotas aplican aun cuando el
Tarjetahabiente y/o las personas autorizadas no utilicen
la(s) Tarjeta(s). Las cuotas pueden cambiar a lo largo
del tiempo y a discreción del Banco. Usted podrá
cancelar su Tarjeta si no está de acuerdo con un
aumento en la cuota anual. Refiérase a la sección XIV
de este Contrato para más detalles. Aplican las
siguientes cuotas de membresía.
Tipo de Tarjeta

Cuota Anual

MasterCard
Gold MasterCard
Visa
Gold Visa

$29
$49
$29
$45

Cuota por
Tarjeta Adicional
$9
$9
$9
$9

No aplicara a aquellos clientes que al momento de
aplicar para producto de crédito aplicable fueron
identificados como militares activos o dependiente
cubierto, según la Ley de Prestamos a Militares, siempre
y cuando el militar siga bajo el servicio activo.
X. OTROS CARGOS
Para todas las tarjetas se cobrará un cargo por demora
de $25 si el pago mínimo no se efectúa en la fecha de
pago indicada en su estado de cuenta. De haber una
violación subsiguiente después del primer pago tardío
en los próximos seis meses, podríamos imponer un
cargo por demora de $35. Una vez transcurran seis
meses del primer pago tardío, aplicará nuevamente el
cargo por pago tardío de $25 a la próxima violación y a
partir de ésta comienza un nuevo periodo de seis meses
donde el próximo pago tardío puede estar sujeto a un
cargo por demora de $35 y así sucesivamente. En
cualquier eventualidad, la cantidad del cargo no
excederá la cantidad del pago mínimo requerido en tu
estado de cuenta.
Se cobrará un cargo por servicio igual a 2% de la
cantidad de cada adelanto en efectivo y
transferencias de balances efectuados a través de los
cajeros automáticos, adelantos de efectivo en la
sucursal o cheques de conveniencia, teniendo en cuenta
un mínimo de $2.00 y un máximo de $10.00.
Cambio de Moneda: Se aplicará un cargo del 1% de
la cantidad de la transacción en USD por cada
transacción efectuada en moneda extranjera. Este cargo
es adicional a cualquier otro cargo aplicable.
Se cobrará un cargo de $10.00 por cada cheque
utilizado para efectuar pago que sea devuelto por
cualquier razón que evite procesar el pago. Estos
cargos serán añadidos al balance de mercancías y
servicios de su cuenta. Los mismos pueden variar de
tiempo en tiempo a discreción del Banco con notificación
previa.

Un cargo por violaciones que resulten del mismo
evento o transacción
Solo cargaremos una penalidad por una misma
violación a los términos de tu cuenta basada en un
evento o transacción. Por ejemplo, si tu pago es
devuelto después de la fecha de pago requerida en tu
estado de cuenta como resultado de fondos
insuficientes u otra razón, impondremos solamente el
cargo por demora o el cargo por pago devuelto. No se
cobrarán ambos ya que los cargos han resultado del
mismo evento o transacción.
XI. TASA ESPECIAL PARA SOLICITANTES
CUBIERTOS POR LA LEY DE PRESTAMOS A
MILITARES (MLA)
Aquel solicitante que al momento de aplicar para el
producto de crédito aplicable sea identificado (según
establecido por el Banco) como un militar activo o
dependiente cubierto, tendrá el beneficio de obtener
una tasa de porcentaje anual (APR) especial de
6.00% (Tasa Periódica Mensual 0.5000%). Esta tasa
estará considerada como parte de la tasa de
porcentaje anual militar (MAPR), que según requerido
por la Ley de Prestamos a Militares no excederá un
36.00% (MAPR). Esta tasa especial estará vigente
siempre y cuando el militar permanezca en el servicio
activo. Una vez el militar culmine el servicio activo se
le aplicara la tasa de interés anual (APR)
prevaleciente.
XII. TASA POR INCUMPLIMIENTO
El APR que aplicará al balance de la cuenta,
incluyendo compras nuevas, adelantos de efectivo y
balances transferidos, puede aumentar a 24.99% ó
28.99% APR, sujeto a su puntuación de
comportamiento de crédito, si se produce una de las
siguientes condiciones:
A. El pago mínimo no se reciba dentro de los 60 días
a la fecha de vencimiento en el estado de cuenta.
B. Manejo inadecuado de su tarjeta de crédito según
los parámetros del Banco, que puede incluir: atraso de
un pago mínimo, un cheque devuelto, exceder el límite
de la línea de crédito establecida y no cumplir con los
parámetros crediticios establecidos por el Banco.
El Banco proveerá notificación previa según requerida
por ley antes de la implementación de cualquier tasa
por incumplimiento.
La tasa por incumplimiento
revertirá al APR regular una vez se efectúen seis (6)
pagos mínimos consecutivos en o antes de la fecha
de pago requerida.
C. La tasa por incumplimiento no aplicara a aquellos
clientes que al momento de aplicar para producto de
crédito aplicable fueron identificados como militares
activos o dependiente cubierto, según la Ley de
Prestamos a Militares, siempre y cuando el militar siga
bajo el servicio activo.
XIII. PÉRDIDA O ROBO DE LA TARJETA
En caso de pérdida o robo de la Tarjeta, el
Tarjetahabiente notificará inmediatamente al Banco

llamando a los teléfonos 787-766-4999 ó 1-877-7664999 24 horas, 7 días a la semana (libre de cargos), o al
1-800-847-2911 (Estados Unidos); o enviando un fax al
1-787-704-6510. El cliente completará y someterá
aquellos formularios o informes que el Banco le
requiere. La responsabilidad del Tarjetahabiente por el
uso no autorizado de la Tarjeta no sobrepasará la suma
de $50.00 mediante el uso no autorizado de la Tarjeta
antes de que el Banco fuese notificado de la pérdida,
robo o uso no autorizado de la misma si el cliente
notifica al Banco durante los próximos dos días luego de
descubrir la pérdida.
XIV. SEGURO DE BALANCE
El Tarjetahabiente podrá solicitar un plan de seguro de
crédito que le asegurará el balance de su cuenta hasta
un máximo de $10,000. Este seguro es opcional, el
mismo no se requiere para obtener y usar la Tarjeta.
XV. ACELERACION DE LA DEUDA
El Banco puede acelerar el vencimiento de toda o
cualquier parte de la cantidad adeudada bajo este
contrato en caso de que ocurra cualquiera de las
circunstancias prescritas por ley.
XVI. ENMIENDAS
El Banco tendrá derecho a enmendar los términos y
condiciones de este contrato en cualquier momento
mediante aviso por escrito al Tarjetahabiente antes de la
fecha de efectividad en que el cambio entre en vigor y
según previsto por la regulación aplicable. De no estar
de acuerdo con las enmiendas notificadas el
Tarjetahabiente podrá cancelar el contrato según lo
estipula la ley mediante el procedimiento que habrá de
notificársele con la(s) enmienda(s). Si usted no está de
acuerdo con las enmiendas y desea cancelar el
Contrato, debe notificar por escrito al Banco antes de la
fecha en que los cambios entren en vigor y debe
continuar pagando los balances existentes de acuerdo
a los términos y condiciones en vigencia.
XVII. OTRAS ESTIPULACIONES
A. El Banco queda por este medio autorizado por el
Tarjetahabiente a investigar la referencia de crédito del
Tarjetahabiente.
B. El Tarjetahabiente puede solicitar Tarjetas
adicionales bajo su número de cuenta vigente para ser
usadas por otras personas designadas por el
Tarjetahabiente en cuyo caso el Tarjetahabiente será
responsable individualmente y solidariamente por el
pago de todos los cargos relacionados con compras,
servicios y adelantos de efectivo efectuados con estas
tarjetas adicionales, así como también del pago de los
CARGOS POR FINANCIAMIENTO resultantes de estas
transacciones. Si el Tarjetahabiente desea revocar la
autorización que le ha dado a otras personas para usar
la Tarjeta, deberá notificarlo a esas personas y recoger
y entregar al Banco las Tarjetas expedidas a cada una
de estas personas.

C. Si el Banco deja de ejercer alguno de sus derechos
bajo este Contrato no se considerará como una
renuncia a dichos derechos.
D. Cuentas conjuntas: Ustedes serán solidariamente
responsables por el pago total de las compras y
adelantos de efectivo realizados con sus tarjetas. El
Banco podrá requerir la comparecencia y firma de
ustedes para procesar ciertas instrucciones o
solicitudes que incluyen, pero no se limitan a (1)
solicitud de aumento o reducción del límite de crédito,
(2) emisión de tarjetas adicionales y (3) cambio en la
dirección a la cual se envía el estado de cuenta de su
tarjeta de crédito. Usted acuerda liberar e indemnizar
al Banco de toda responsabilidad por daños, pérdidas
o gastos que surjan como resultado de cualquier
acción que realice el Banco en cumplimiento con las
instrucciones dadas por cualquiera de ustedes.
E. El Banco no será responsable si una compra o
adelanto en efectivo no es aprobado por el Banco o un
tercero, aún en el caso de que usted tenga crédito
disponible. El Banco puede limitar el número de
compras o adelantos de efectivo aprobados durante
un día. Si el Banco detecta actividad poco usual en su
cuenta, podrá suspender temporalmente su crédito
hasta tanto se verifique la legitimidad de la
transacción. El Banco podría aprobar compras o
adelantos de efectivo que excedan su límite de crédito
sin renunciar a sus derechos bajo este acuerdo.
F. Si cualquier cláusula de este Contrato o parte de la
misma es anulada por un tribunal o se torna ineficaz
debido a disposiciones legales o regulaciones, las
disposiciones restantes de este Contrato no serán
afectadas y continuarán en plena vigencia y efecto.
G. Este contrato se interpretará según las leyes del
Estado Libre Asociado de Puerto Rico.
H. Usted no tiene obligación de aceptar esta Tarjeta ni
se le hará responsable por ninguno de los cargos, a
menos que usted decida aceptarla. El uso de esta
Tarjeta constituye su aceptación con los términos y
condiciones de este Contrato. Si usted escoge no
aceptar la Tarjeta, debe notificar al Banco durante los
próximos 30 días luego de recibir este Contrato sin
haberla usado. Para notificar, favor de llamar al 787766-4999 o libre de cargos al 1-877-766-4999 o
escríbanos a: Scotiabank de Puerto Rico, PO Box
362230, San Juan, PR 00936-2230.
XVIII.
EN
CASO
DE
ERRORES
RECLAMACIONES
RELACIONADOS
A
ESTADO DE CUENTA

O
SU

¿Qué hacer si usted entiende que existe un error en
su estado de cuenta?
Si usted entiende que hay un error en su estado de
cuenta escríbanos a:
Scotiabank de Puerto Rico
PO Box 362230
San Juan, PR 00936-2230

Puede también contactarnos a través de nuestra página
de Internet: scotiabankpr.com.
Su reclamación debe incluir:
• Información sobre cuenta: Su nombre y número de
cuenta.
• Cantidad reclamada: La cantidad en dólares del
alegado error
• Descripción del alegado error: una descripción del
aparente error y explicación de por qué usted considera
que existe un error.

El Banco deberá recibir su reclamación dentro de los
sesenta (60) días siguientes a la fecha del envío del
primer estado de cuenta donde aparece el alegado
error.
Usted deberá notificarnos de cualquier error potencial
por escrito o electrónicamente. Nos puede llamar por
teléfono pero si lo hace no estamos obligados a
investigar cualquier error potencial y usted pudiera tener
que pagar el alegado error en cuestión.
Durante la investigación, el Banco no tomará ninguna
acción para:
1. Cobrar la cantidad reclamada o informar dicha
cantidad reclamada como atrasada.
2. La cantidad reclamada pudiera mantenerse en su
estado de cuenta, y nosotros pudiéramos continuar
cargando intereses a esa cantidad. Pero, si nosotros
determinamos que hubo un error, usted no tendrá que
pagar la cantidad reclamada o intereses o cargos
relacionados.
3. Aunque no tiene que pagar la cantidad reclamada,
usted es responsable de pagar aquella parte de su
estado de cuenta que no está incluida en su
reclamación.
4. El Banco puede aplicar cualquier cantidad sin pagar
contra su línea de crédito.
Sus Derechos en caso de no estar satisfecho con
una compra con su Tarjeta de Crédito.
De tener usted problemas con la calidad de la
mercancía o servicios comprados con su Tarjeta de
Crédito, y de haber usted tratado de buena fe de
corregir el problema con el vendedor, usted pudiera
tener el derecho de no pagar por el remanente de la
deuda relacionada con esta mercancía o servicios.
Para poder ejercer este derecho, las siguientes
cláusulas deben ser verdaderas:
1. Usted debe haber realizado la compra en el estado
donde reside, o a 100 millas de su dirección postal
actual, y el precio de la compra debe ser mayor de $50.
(Nota: Ninguna de estas limitaciones es necesaria si el
comercio donde usted adquirió la mercancía o servicios
es propiedad o es controlado por el Banco, o si la
compra se basó en un anuncio o propaganda de la
mercancía o servicios enviado por el Banco.)
2. Tiene que haber utilizado la Tarjeta de Crédito para la
mercancía o servicios. No cualifican compras

efectuadas con adelantos de efectivo de un Cajero
Automático o con cheques de conveniencia.
3. No puede haber pagado por completo la mercancía
o servicios. Si todos los criterios mencionados arriba
se cumplen y usted todavía no está satisfecho con la
mercancía o servicios, nos puede contactar por escrito
a:
Scotiabank de Puerto Rico
PO Box 362230
San Juan, PR 00936-2230
También nos puede contactar a través de nuestra
página de Internet: scotiabankpr.com.
Mientras el Banco complete la investigación, aplicarán
las mismas reglas detalladas anteriormente. Si usted
debe una cantidad y no paga, nosotros podemos
reportarlo atrasado.
INFORMACIÓN
IMPORTANTE
SOBRE
PROCEDIMIENTOS PARA ABRIR UNA CUENTA
NUEVA
Para ayudar al gobierno en la lucha contra el
terrorismo y las actividades de lavado de dinero, las
leyes federales le requieren a toda institución
financiera obtener, verificar y mantener la información
que identifica a cada persona que abre una cuenta.
Qué significa esto para usted: cuando abre una cuenta
le preguntaremos su nombre, dirección, fecha de
nacimiento y cualquier otra información que nos pueda
ser necesaria para identificarlo. También podríamos
solicitar ver su licencia de conducir o cualquier otro
documento que lo identifique.

AVISO AL CESIONARIO
El cesionario que reciba o adquiera el presente
CONTRATO AL POR MENOR A PLAZOS o un pagaré
relacionado con éste, quedará sujeto en igualdad de
condiciones a cualquier reclamación o defensa que el
comprador puede interponer en contra del vendedor. El
Cesionario del Contrato tendrá derecho a presentar
contra el vendedor todas las reclamaciones y defensas
que el comprador pueda levantar contra el vendedor de
los artículos o servicios.
AVISO AL TARJETAHABIENTE
NO FIRME ESTE CONTRATO SIN LEERLO O SI EL
MISMO CONTIENE ESPACIOS EN BLANCO. USTED
TIENE DERECHO A UNA COPIA DE ESTE
CONTRATO. BAJO LA LEY ACTUAL USTED TIENE
DERECHO A PAGAR POR ADELANTADO TODA LA
SUMA ADEUDADA.

Firma del Tarjetahabiente (solicitante):

Fecha:

Firma del Tarjetahabiente (cosolicitante):

Fecha:

PARA USO DEL BANCO SOLAMENTE
Número de cuenta

Por: _______________
Firma del oficial

® Marca de The Bank of Nova Scotia , utilizada bajo licencia. Miembro FDIC. OCIF Lic. 22
® Visa es una marca registrada de Visa International Service Association.
® MasterCard es una marca registrada de MasterCard International Incorporated.
MCVICA 2/2019

SCOTIABANK DE PUERTO RICO
PO BOX 362230
SAN JUAN, PR 00936-2230

Anejo a Contrato de Tarjetas de Crédito
Tasas de Interés y Cargos
Tarjeta de Crédito

Tasa de Porcentaje Anual
(APR) para Compras

Visa® y MasterCard®

Visa Gold

Gold MasterCard

18.95%,
19.99% ó
24.99%

14.99%,
16.99%,
19.99% ó
24.99%

17.90%

La tasa de porcentaje anual (APR) que aplicará a su cuenta dependerá de su experiencia de crédito al momento en
que su solicitud sea aprobada, en arreglo a la libre competencia y de conformidad con la reglamentación en vigor.
Aquellos clientes que al momento de solicitar sean identificados como miembro activo de las fuerzas armadas o
dependiente cubierto, según establecido por la Ley de Prestamos a Militares (MLA), tendrán una tasa de porcentaje
anual (APR) especial de 6.00%. La misma será vigente mientras dure en el servició activo. Una vez su periodo de
activación culmine se aplicara la taza de porcentaje anual (APR) prevaleciente.

22.99% ó
24.99%
APR para Adelantos de
Efectivo y Transferencias de
Balances

14.99%,
16.99%,
19.99% ó
24.99%

22.99%

La tasa de porcentaje anual (APR) que aplicará a su cuenta dependerá de su experiencia de crédito al momento en
que su solicitud sea aprobada, en arreglo a la libre competencia y de conformidad con la reglamentación en vigor.
Aquellos clientes que al momento de solicitar sean identificados como miembro activo de las fuerzas armadas o
dependiente cubierto, según establecido por la Ley de Prestamos a Militares (MLA), tendrán una tasa de porcentaje
anual (APR) especial de 6.00%. La misma será vigente mientras dure en el servició activo. Una vez su periodo de
activación culmine se aplicara la taza de porcentaje anual (APR) prevaleciente.

24.99% ó 28.99%, sujeto a su puntuación de comportamiento de crédito.

APR por Incumplimiento:
Cuándo Aplica y Cuando No
Aplica

La tasa por incumplimiento se aplicará si se produce una de las siguientes condiciones:
o El pago mínimo no se reciba dentro de 60 días a partir de la fecha de vencimiento del estado de cuenta
o dos (2) ciclos de facturación consecutivos
o Manejo inadecuado de su tarjeta de crédito según los parámetros del Banco, que puede incluir: atraso
de un pago mínimo, un cheque devuelto, exceder el límite de la línea de crédito establecida y no
cumplir con los parámetros crediticios establecidos por el Banco.
¿Cuánto tiempo durará el APR por incumplimiento? Si su APR aumentara por alguna de las razones arriba
indicadas el mismo revertirá al APR regular una vez se efectúen seis (6) pagos mínimos consecutivos en o
antes de la fecha de pago requerida.
Esta tasa por incumplimiento no aplicara mientras este cubierto bajo las provisiones de la Ley de Prestamos a
Militares (MLA).

Cobro de Intereses

Límite para Adelantos en
Efectivo
Para Consejos sobre
Tarjetas de Crédito de la
Oficina para la Protección
Financiera del Consumidor”
Cuotas
Cuota Anual

La fecha de vencimiento del pago es de al menos 25 días después de la fecha de cierre del periodo de
facturación. No se impondrán cargos por financiamiento sobre compras de mercancía y servicios durante el
ciclo de facturación mensual si se paga el balance en su totalidad en o antes de la fecha de vencimiento que
aparece en el estado de cuenta. Los cargos por financiamiento para adelantos de efectivo se calcularán desde
la fecha en la cual el adelanto de efectivo es cargado a la cuenta hasta que se paga en su totalidad. Las
transferencias de balances y los cheques de conveniencia son tratados como adelantos de efectivo.
La cantidad máxima para adelantos en efectivo será el 20% del límite de crédito aprobado, si está disponible.
Para conocer más sobre los factores a considerar al momento de solicitar o utilizar una tarjeta de crédito, visite
la página de Internet http://www.consumerfinance.gov/learnmore/.

Visa y MasterCard
$29

* Por cada tarjeta adicional

$9

* Clientes en servicio Militar
Activo según MLA
Cargos por Transferencias
de
Balances y Adelantos de
Efectivo
Cargo por Cambio de
Moneda
Cargo por Pago Devuelto
Cargo por Pago Tardío

$0

Visa Gold

Gold MasterCard

$45

$49

$9

$9

$0

$0

2% de la cantidad de cada adelanto de efectivo y transferencia de balance, mínimo de $2.00 y un máximo de
$10.00
1% de la cantidad de la transacción en USD por cada transacción efectuada en moneda extranjera, adicional a
cualquier otro cargo aplicable
$10
Hasta $35

Método para Calcular el Balance: Utilizamos el Método de Balance Promedio Diario, incluyendo compras y transacciones nuevas. Verifique su
contrato de manejo de cuenta rotativa para más detalles.
Derechos de reclamos en su facturación: Información relacionada con sus derechos de facturación y resolución de errores y sobre cómo
ejercer los mismos está incluida en su contrato de manejo de cuenta.
Para más información, comuníquese con un representante de TeleScotia al 787-766-4999 ó 1-877-766-4999. También nos puedes escribir al
PO Box 362230, San Juan Puerto Rico 00936-2230.
Firma del Solicitante: ___________________________________________________________________ Fecha: ___________________
Firma del Co-solicitante: ___________________________________________________________________ Fecha: ___________________
® Marca de The Bank of Nova Scotia, utilizada bajo licencia. Miembro FDIC. OCIF Lic. 22
® Visa es una marca registrada de Visa International Service Association.
® MasterCard es una marca registrada de MasterCard International Incorporated.
2/2019

